OIG Audit Report GR-50-07-002

Use of Equitable Sharing Revenues by the Iowa Department of Public Safety
Des Moines, Iowa

Audit Report GR-50-07-002


December 2006
Office of the Inspector General


Executive Summary





 The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, has completed an audit of the use of DOJ equitable sharing revenues by the Iowa Department of Public Safety (Iowa DPS). Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.1  During the period of July 1, 2003, through June 30, 2005, the Iowa DPS was awarded DOJ equitable sharing revenues totaling $2,917,926 and property valued at $65,175 to support law enforcement operations. 
 The Iowa DPS generally complied with equitable sharing guidelines with respect to accounting for equitable sharing receipts, use of equitably shared property, interest earned on equitable sharing funds, and supplanting. However, we found weaknesses related to the Iowa DPS’s Federal Annual Certification Reports, tracking and reconciliation of sharing requests, and the use of equitable sharing revenues. Overall, we identified $589,970 in dollar-related findings, which is about 19 percent of total equitable sharing funds expended by the Iowa DPS during FYs 2004 and 2005. Our findings include:

 The Iowa DPS did not adequately track equitable sharing requests and receipts, and receipts were not deposited in a timely manner. 
 We identified $589,970 in questioned costs relating to equitable sharing funds, consisting of $536,820 in unsupported expenditures and $53,150 in unallowable costs. 

The results of our work are discussed in greater detail in the Findings and Recommendations section of the report. The audit objectives, scope, and methodology appear in Appendix I. 



Footnotes

The DOJ asset forfeiture program has three primary goals: (1) to punish and deter criminal activity by depriving criminals of property used or acquired through illegal activities; (2) to enhance cooperation among foreign, federal, state, and local law enforcement agencies through equitable sharing of assets recovered through this program; and, as a by-product, (3) to produce revenues to enhance forfeitures and strengthen law enforcement.